         Office of Inspector General




January 25, 2006

LAWRENCE K. JAMES
MANAGER, RIO GRANDE DISTRICT

SUBJECT: Audit Report – Address Management System – Southwest Area,
         Rio Grande District (Report Number DR-AR-06-001)

This is one of a series of audit reports on the Postal Service’s Address
Management System (AMS). This report presents the results of our self-initiated
audit of the AMS in the Southwest Area, Rio Grande District (Project Number
05YG023DR000). The information in this report will be included in a nationwide
capping report assessing AMS. Our objective was to assess the Postal Service’s
management of delivery/AMS quality review results to ensure address
information is correct and complete to effectively process and deliver the mail in
the Southwest Area, Rio Grande District.

Postal Service officials in the Southwest Area, Rio Grande District, can
implement best management practices from the New York Metro Area, New York
City District, to improve the quality of AMS data. Approximately 106,444 AMS
data errors may exist in the Rio Grande District because street reviews are not
conducted for some routes. AMS officials did not use available district resources
(such as delivery supervisors) to conduct additional street reviews. Currently, the
Rio Grande District’s AMS quality review program — administered by local AMS
officials — does not include street reviews using delivery supervisors, only AMS
staff. The Rio Grande District could incur processing and delivery costs of
$988,945 over the next 10 years because of the remaining AMS errors. We will
report $988,945 of funds put to better use in our Semiannual Report to Congress.
We recognize the Rio Grande District has experienced success with Delivery
Point Sequencing (DPS), as the district has produced one of the highest DPS
volumes in the Postal Service; however, a decrease in AMS data errors will
reduce operating costs.

We recommended providing training in AMS quality street reviews to all delivery
supervisors or appropriate designees. We also recommended establishing an
annual district schedule of AMS quality street reviews and direct delivery
supervisors or appropriate designees to review delivery routes annually. Finally,
we recommended the AMS office establish a tracking system for street reviews.

Management agreed with our findings and recommendations and the
$988,945 in funds put to better use. Management stated they are developing an
AMS Street Review Training DVD for distribution to all delivery offices throughout
the district. Management also stated they are implementing a program to review
700 routes per year beginning in fiscal year 2006. In addition, management will
implement a tracking system to monitor route reviews completed and errors
detected. Management’s comments and our evaluation of these comments are
included in the report. Management’s actions taken and planned are responsive
to the recommendations and should correct the issues identified in the findings.

The U.S. Postal Service Office of Inspector General (OIG) considers
recommendations 1 through 3 significant, and requires OIG concurrence before
closure. The OIG considers the support provided by management detailing
corrective actions, in response to this report, to be sufficient to close the
recommendations.

We appreciate the cooperation and courtesies provided by your staff during the
audit. If you have any questions or need additional information, please contact
Rita Oliver, director, Delivery and Retail, or me at (703) 248-2300.

 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Charles E. Bravo
    Ellis A. Burgoyne
    George L. Lopez
    David L. Solomon
    Vinnie Malloy
    Janice Caldwell
    Steven R. Phelps
Address Management System –                                                                 DR-AR-06-001
 Southwest Area, Rio Grande District

                                        INTRODUCTION
Background                       Address management has become the foundation for how
                                 the Postal Service moves mail. Over the years, the Postal
                                 Service has been striving to obtain the highest quality
                                 address information possible for internal use and for its
                                 customers. In March 1993, the Postal Service implemented
                                 Delivery Point Sequencing (DPS).1 DPS is the process of
                                 putting barcode mail into the carrier’s line of travel (LOT) to
                                 eliminate manual mail sorting, improve efficiency, and
                                 reduce costs.

                                 In 1994, the Postal Service established the Address
                                 Management System (AMS) to capture, correct, and
                                 complete address information to enhance the efficiency of
                                 mail processing and delivery through automation. Address
                                 information in the AMS is captured in sort programs used to
                                 process mail in DPS. A sort program developer creates sort
                                 programs as part of the Sort Program System (SPS), which
                                 is part of the National Directory Support System (NDSS).
                                 DPS sort programs are transferred to either a Mail
                                 Processing Barcode Sorter (MPBCS) or a Delivery Barcode
                                 Sorter (DBCS)2 for sorting mail into DPS.

                                 Mail that cannot be processed on automated equipment
                                 requires manual processing, which is less efficient and is
                                 costly to the Postal Service. During the third quarter of fiscal
                                 year (FY) 2005, the Postal Service processed 23 billion
                                 pieces of mail nationwide, including 18 billion pieces
                                 (78 percent) processed on automated equipment and the
                                 remaining 5 billion pieces (22 percent) processed manually.

                                 In 2003, the Postal Service outlined a strategy to Enhance
                                 Address Quality in its Intelligent Mail Corporate Plan. The
                                 strategy includes improving the address database, filling
                                 change of address orders, and using Address Change
                                 Service. To improve the address database, the Postal
                                 Service established a Delivery/AMS quality review program
                                 to evaluate the quality of AMS data and meet the goal of
                                 100 percent accurate AMS data nationwide.



1
  DPS resulted from an agreement in 1992 with the National Association of Letter Carriers (NALC) to
change the automation environment.
2
  DPS mail is also sorted on carrier sequence barcode sorters (CSBCS), a type of mail processing
equipment (MPE) used by smaller Postal Service facilities.


                                                    1
Address Management System –                                                 DR-AR-06-001
 Southwest Area, Rio Grande District



                              As part of the quality review program, National Customer
                              Support Center (NCSC) teams annually conduct street
                              reviews of 40 routes at each Postal Service district
                              nationwide. The NCSC team selects 40 city or rural delivery
                              routes based on Postal Service guidelines. For every route
                              selected within a ZIP Code, two alternate routes are
                              selected.

                              The street reviews include:

                              •   Identifying all possible delivery addresses included in
                                  Address Information System products and the NDSS
                                  files.

                              •   Validating the number of possible delivery addresses
                                  assigned to each carrier route.

                              •   Validating the correct LOT or delivery sequence for each
                                  carrier route.

                              •   Assigning ZIP+4 Codes to maximize compatibility with
                                  automated equipment.

                              •   Verifying the standardization of addresses according to
                                  Publication 28, Postal Addressing Standards.

                              •   Reviewing AMS database products to meet the needs
                                  and expectations of Postal Service customers.

                              When a district scores below 98 percent on the street
                              review, the NCSC team will review it every 6 months, and
                              districts scoring from 98 to 100 percent will receive an
                              annual review. Districts scoring 99 percent or higher may
                              receive abbreviated route reviews, at the discretion of area
                              or district officials.

                              In addition to the NCSC street reviews, AMS district officials
                              conduct street reviews of routes to maintain the accuracy of
                              AMS data. Furthermore, carriers also identify AMS data
                              changes based on their street deliveries. The carriers note
                              address changes in their AMS edit books and submit the
                              information to the AMS district officials for review and
                              correction in the AMS database.




                                             2
Address Management System –                                                                 DR-AR-06-001
 Southwest Area, Rio Grande District



                                 As the Postal Service continues to process increasing
                                 volumes of mail on automated equipment, the quality of
                                 address information takes on new importance. Use of
                                 correct and complete address information can reduce costs
                                 to the Postal Service.

Objective, Scope,                Our objective was to assess the Postal Service’s
and Methodology                  management of the Delivery/AMS quality review results to
                                 ensure address information is correct and complete to
                                 effectively process and deliver the mail. We obtained data
                                 on the FY 2004 Delivery/AMS quality review from the NCSC
                                 to analyze routes reviewed, AMS data errors identified, and
                                 performance scores. We selected the Southwest Area,
                                 Rio Grande District, and the New York Metro Area, New
                                 York City (NYC) District, to perform our site visits, based on
                                 the NCSC performance scores identified by Delivery/AMS
                                 quality review results.3

                                 We obtained and reviewed prior AMS review results for the
                                 NYC District, which showed street review performance
                                 scores consistently above 99 percent. As a best
                                 management practice, we evaluated the feasibility and
                                 applicability of the NYC AMS data maintenance program
                                 to other Postal Service districts. Our review of the street
                                 review performance scores for the Rio Grande District
                                 showed they were consistently below 98 percent. At
                                 the Rio Grande District, we evaluated the AMS data
                                 maintenance process to determine whether the program
                                 could be improved. We sampled 203 AMS data errors
                                 identified by the NCSC national street review team in
                                 FY 2004 and assessed the effectiveness of the Rio Grande
                                 District’s error correction process.

                                 We conducted this audit from March 2005 to January 2006
                                 in accordance with generally accepted government
                                 accounting standards and included such tests of internal
                                 controls as we considered necessary under the
                                 circumstances. We discussed our observations and
                                 conclusions with management officials and included their
                                 comments where appropriate. We did not use any
                                 computer-generated data to develop our conclusions.


3
  The Rio Grande District was selected based on its historically low performance scores, and the NYC
District was selected based on its historically high performance scores and improvements to the AMS
process.

                                                    3
Address Management System –                                                 DR-AR-06-001
 Southwest Area, Rio Grande District



Prior Audit Coverage          We did not identify any prior audits or reviews related to the
                              objective of this audit.




                                             4
Address Management System –                                                                 DR-AR-06-001
 Southwest Area, Rio Grande District

                                       AUDIT RESULTS
Address Management                Opportunities exist for Postal Service officials in the
System                            Southwest Area, Rio Grande District, to improve the quality
                                  of AMS data by implementing best management practices
                                  from the New York Metro Area, NYC District. The Rio
                                  Grande District may have 106,444 errors in AMS data
                                  because an insufficient number of street reviews were
                                  conducted. AMS officials did not utilize available district
                                  resources, such as delivery supervisors, to conduct
                                  additional street reviews. Currently, the Rio Grande
                                  District’s AMS quality review program, administered by local
                                  AMS officials, does not include conducting the street
                                  reviews using delivery supervisors, only AMS staff. In
                                  addition, the associate supervisors’ training course given to
                                  Rio Grande delivery supervisors does not include an AMS
                                  review module. The Rio Grande District could incur
                                  processing and delivery costs of $988,945 over the next
                                  10 years because of the remaining AMS errors. We will
                                  report $988,945 of funds put to better use in our
                                  Semiannual Report to Congress. (See Appendix A.)

                                  The Rio Grande District has experienced success with DPS,
                                  as the district has produced one of the highest DPS
                                  volumes in the Postal Service. However, a decrease in
                                  AMS data errors will reduce operating costs.4

Rio Grande District               The Rio Grande District has 4,748 city and rural routes. In
                                  FY 2004, the NCSC team reviewed 1 percent (40 of 4,748)
                                  of these routes according to Postal Service guidelines. The
                                  team identified 927 AMS errors, approximately 23 errors
                                  per route. NCSC teams did not review the remaining
                                  99 percent of the routes (4,708 of 4,748). The district
                                  received a 96 percent AMS performance score. We
                                  reviewed 203 (22 percent) of the 927 errors and found that
                                  district officials had corrected all identified errors.

                                  In FY 2004, Rio Grande AMS officials reviewed another
                                  2 percent (80 of 4,748) of the routes and identified
                                  1,919 AMS data errors. The district corrected all errors.

                                  The Rio Grande District did not review the remaining
                                  97 percent (4,628 of 4,748) of the total routes in the Rio
                                  Grande District. Based on FY 2004 NCSC team reviews
4
 In the third quarter, FY 2005, the Rio Grande District had a DPS mail volume of 83.7 percent. Achieving
80 percent for DPS volume places the district among the highest in the Postal Service. The NYC District
had a DPS mail volume of 59.7 percent during the same period.

                                                    5
Address Management System –                                                 DR-AR-06-001
 Southwest Area, Rio Grande District

                              and the related error rate per route, 106,444 AMS data
                              errors may exist due to not conducting reviews.

                              Rio Grande AMS officials stated that, although Postal
                              Service policy did not require it, they reviewed the additional
                              80 routes according to guidelines for the Delivery/AMS
                              national street review program. AMS District officials did not
                              utilize available district resources, such as delivery
                              supervisors, to conduct additional street reviews. Currently,
                              the Rio Grande District’s AMS quality review program,
                              administered by local AMS officials, does not include
                              conducting the street reviews using delivery supervisors,
                              only AMS staff.

                              Rio Grande District officials expressed concerns with the
                              NCSC’s use of the AMS route combined score as a
                              performance indicator and their route sampling
                              methodology. Officials stated that the performance score
                              includes AMS errors that do not have an operational cost
                              impact, and an AMS route operational score would more
                              accurately indicate the cost impact of AMS errors on
                              processing and delivering the mail. Officials further stated
                              that the NCSC’s random sampling of 40 routes per district
                              location may not accurately account for the district’s overall
                              performance. We plan to address these concerns in a
                              capping report to Postal Service Headquarters.

NYC District                  The NYC District has 2,300 city routes. In FY 2004, the
                              NCSC team reviewed 2 percent (40 of 2,300) of these
                              routes according to Postal Service guidelines. The team
                              identified 199 AMS errors, approximately five errors per
                              route, and the district received a 99 percent AMS
                              performance score from the street review. The NCSC team
                              did not review the remaining 98 percent of the routes (2,260
                              of 2,300).

                              In 1998, the NYC District began an extensive AMS quality
                              review program, administered by local AMS officials, which
                              requires delivery units to complete AMS street reviews
                              using existing staff. As part of the program, NYC District
                              officials added an AMS review module to the associate
                              supervisors’ training course given to NYC delivery
                              supervisors. In addition, the NYC AMS office established
                              AMS review schedules for all delivery units’ existing staff




                                            6
Address Management System –                                                 DR-AR-06-001
 Southwest Area, Rio Grande District



                              and an accountability system that monitors the completion
                              of AMS street reviews conducted by delivery supervisors or
                              their designees. As a result, the NYC District used existing
                              staff to significantly increase its review coverage.

                              In FY 2004, through the review program, NYC District
                              officials reviewed 2,288 of 2,300 routes, which included
                              routes reviewed by the NCSC. The existing staff reviewed
                              and implemented corrective actions for the AMS errors
                              identified. The goal of the NYC District’s program is to
                              review all routes annually. AMS reviews conducted by
                              delivery unit staff are being implemented by all districts in
                              the New York Metro Area, and the program has been very
                              successful. Since its inception, all districts have achieved
                              significant increases in AMS performance scores.

Recommendation                We recommend the manager, Rio Grande District,
                              implement an AMS quality review program similar to the
                              NYC District that includes:

                                1. Providing training in Address Management System
                                   Quality Street reviews to all delivery supervisors or
                                   appropriate designees.

Management’s                  Management stated they are developing an AMS Street
Comments                      Review Training DVD for distribution to all delivery offices
                              throughout the district beginning in March 2006.
                              Management’s comments, in their entirety, are included in
                              Appendix B of this report.

Recommendation                  2. Establishing a district schedule of annual Address
                                   Management System Quality Street reviews and direct
                                   delivery supervisors or appropriate designees to review
                                   delivery routes annually.

Management’s                    Management also stated they are implementing a program
Comments                        to review 700 routes per year beginning in FY 2006.

Recommendation                  3. Requiring the Address Management System office to
                                   establish a tracking system to monitor completed street
                                   reviews.




                                             7
Address Management System –                                             DR-AR-06-001
 Southwest Area, Rio Grande District



 Management’s                Management will implement a tracking system to monitor
 Comments                    route reviews completed and errors detected. The system will
                             include the date they detected and corrected errors.

 Evaluation of                Management’s comments are responsive to
 Management’s                 recommendations 1, 2, and 3. Management’s actions taken
 Comments                     and planned should correct the issues identified in the
                              findings.




                                           8
Address Management System –                                              DR-AR-06-001
 Southwest Area, Rio Grande District

                                       APPENDIX A

                            OIG CALCULATION OF
                          FUNDS PUT TO BETTER USE

The OIG identified $988,945 in funds put to better use. The following
assumptions were used in the calculation of the $988,945.

                     Assumptions of the AMS cost savings model

•    We used the New York Metro Area as our standard for predicting the cost
     savings possible for the Rio Grande District.

•    We assumed that all Postal Service areas other than New York Metro had
     not implemented an error reduction program over the time period of the AMS
     street reviews. These areas were our control group for purposes of
     estimating the net benefit of the New York Metro program.

•    The AMS National Street Review Model is used to calculate cost savings.
     Therefore, we assumed that it realistically represented costs that the Postal
     Service could save if it implemented a program that would reduce the
     incidence of AMS errors. However, in our opinion, any costs saved would
     have to be related to a reduction in overtime or casual hours, and therefore,
     labor rates used should be hourly overtime rates (which was not the case).

•    We used the AMS National Street Review Model unchanged, with
     one exception: the model had FY 1999 labor rates imbedded. We updated
     these rates to reflect FY 2006 rates by escalating by 3 percent per year to
     arrive at a projection.

•    We assumed that the cost of implementing an error reduction program would
     be negligible.

•    We assumed that the average cost per error for the Rio Grande District
     would remain constant before and after program implementation.

•    If the Rio Grande District began implementing a program immediately,
     FY 2006 would be devoted to setup and training. We assumed that cost
     savings would not begin until FY 2007. Our calculation of savings (funds put
     to better use) is a discounted cash flow analysis over a 10-year period. The
     amount we will report in our Semiannual Report to Congress is the present
     value of the estimated savings over the 10 years.

•    AMS errors can never be reduced to zero. We assumed the practical lower
     limit to be a 1 percent error rate. However, this constraint did not affect the
     calculation for the Rio Grande District in this instance.


                                           9
Address Management System –                                            DR-AR-06-001
 Southwest Area, Rio Grande District

•    We assumed that error rates on rural routes would respond to an error
     reduction program in the same way as city routes.

•    In our analysis of the New York Metro Area, we excluded the Caribbean
     District due to uncertainties regarding implementation of an error reduction
     program.

•    Not all categories of AMS errors have associated costs. We assumed that
     costly and noncostly errors would respond to an error reduction program in
     the same manner. That is, if the overall reduction rate for all AMS errors
     was 20 percent, the reduction rate for costly errors was also 20 percent.

•    We will report $988,945 in funds put to better use in our Semiannual Report
     to Congress.




                                        10
Address Management System –                        DR-AR-06-001
 Southwest Area, Rio Grande District



               APPENDIX B. MANAGEMENT’S COMMENTS




                                       11
Address Management System –                 DR-AR-06-001
 Southwest Area, Rio Grande District




                                       12
